<html>
<title> - OVERSIGHT OF U.S. POLICY TOWARD BURMA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 OVERSIGHT OF U.S. POLICY TOWARD BURMA

=======================================================================




                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 25, 2012

                               __________

                           Serial No. 112-140

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
74-001                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                 DONALD A. MANZULLO, Illinois, Chairman
RON PAUL, Texas                      ENI F.H. FALEOMAVAEGA, American 
BILL JOHNSON, Ohio                       Samoa
DAN BURTON, Indiana                  FREDERICA WILSON, Florida
EDWARD R. ROYCE, California          GARY L. ACKERMAN, New York
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MIKE KELLY, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          DENNIS CARDOZA, California
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Kurt Campbell, Assistant Secretary, Bureau of East 
  Asian and Pacific Affairs, Department of State.................    12
The Honorable Nisha Biswal, Assistant Administrator for Asia, 
  United States Agency for International Development (USAID).....    25
The Honorable Tom Andrews, president and CEO, United to End 
  Genocide (former Member of Congress, D-ME).....................    39
Mr. Aung Din, executive director and co-founder, U.S. Campaign 
  for Burma......................................................    48

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois, and chairman, Subcommittee on Asia 
  and the Pacific: Prepared statement............................     3
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................     6
The Honorable Kurt Campbell: Prepared statement..................    15
The Honorable Nisha Biswal: Prepared statement...................    27
The Honorable Tom Andrews: Prepared statement....................    43
Mr. Aung Din: Prepared statement.................................    51

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65


                 OVERSIGHT OF U.S. POLICY TOWARD BURMA

                              ----------                              


                       WEDNESDAY, APRIL 25, 2012

                  House of Representatives,
              Subcommittee on Asia and the Pacific,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room 2200 Rayburn House Office Building, Hon. Donald A. 
Manzullo (chairman of the subcommittee) presiding.
    Mr. Manzullo. The subcommittee on Asia and the Pacific will 
now come to order. The story of Burma is a heartbreaking tale 
of needless suffering and unnecessary sorrow. It is a story of 
a people forced to survive in abject poverty at the hands of 
dictators despite living in a country abundant in natural 
resources. Indeed, for more than a century, the story of Burma 
has been divided into two main chapters; the first takes place 
in the era of colonialism, and the second spans the painful 
evolution of a brutal military dictatorship. Of course, the era 
of independent rule in Burma has been only a footnote in its 
history, a mere blink of an eye--spanning only 14 years--before 
she was again robbed of her freedom.
    The reason I open today's hearing with a look back into 
Burma's history is to remind us all that we must never forget a 
people who, at no fault of their own, have been deprived of so 
much. This includes the ethnic minorities who live in constant 
fear, and of course, the political prisoners who languish 
behind bars to this day.
    This is the real story of Burma, and these are the reasons 
why Members of Congress are dedicated to promoting true reform 
in that country. To date, we know far too little about what is 
actually going on in Burma. Beyond the news stories, 
information is far too scarce and from what we do know, very 
little can be inferred.
    On April 1, 2012, the Burmese regime held parliamentary by-
elections in which Burma's legendary leader, Daw Aung San Suu 
Kyi, and the National League of Democracy, the NLD, won 43 out 
of 45 open seats. Regardless of whether we view an election of 
7 percent of Burma's legislative body as real reform, the 
elections nevertheless cap an impressive year of progress made 
by the secretive military regime.
    The question that we face today is whether these activities 
of the past year represent real reform or modest window 
dressing. If this is real reform, what steps are needed to 
protect progress made and promote additional steps? Have our 
European and Asian allies gone too far by rushing headlong into 
suspending all sanctions and immediately boosting assistance?
    At the same time, the list of problems that Burma continues 
to face is extensive. Approximately 600 political prisoners 
remain behind bars, and in spite of news reports to the 
contrary, there is evidence that a civil war continues to rage 
in the ethnic areas. In the Kachin state, anecdotal evidence 
from refugees and outside visitors point to serious human 
rights abuses being carried out by the military. This has led 
to a serious humanitarian crisis and has forced tens of 
thousands of people to flee their homes and villages.
    Rule of law in Burma continues to be nonexistent, with 
cronyism and bribery ruling the day. If the example of other 
resource-rich countries is applied to Burma, the military 
establishment and corrupt officials stand to reap an enormous 
windfall from the revenue that Burma's rich natural resources 
promise to generate. The people of Burma will see next to 
nothing and remain locked in a repeating cycle of poverty. If 
the U.S. inadvertently contributes to this cycle of corruption 
by recklessly removing sanctions, then a generation's worth of 
efforts by human rights champions will be wasted. We must not 
let this happen.
    America's policy on Burma has long been guided by policy 
makers on both sides of the aisle. I joined my good friend and 
colleague, Congressman Joe Crowley from New York, to pass the 
Congressional Gold Medal Act for Aung San Suu Kyi in 2008, and 
was also the lead Republican in renewing congressional 
sanctions against Burma. I spoke out forcefully against the 
brutal crackdown of the Saffron Revolution and its aftermath. 
Last year, Aung San Suu Kyi delivered recorded testimony before 
the subcommittee on conditions in Burma and urged Congress to 
continue supporting her beloved country. I championed the cause 
of freedom in Burma not because it was politically 
advantageous, but because it was the right thing to do.
    I commend the administration for returning an ambassador to 
Burma and for USAID's reopening of its mission there. More than 
anything, we need Americans on the ground assessing what is 
actually happening. But now, we face the next step in this 
journey. It is my sincere hope that these actions in Burma are 
the beginning of real, meaningful political reconciliation. 
However, let us not lose sight of the reality that Burma has 
endured 50 years of military dictatorship, and those in power 
will not give up this power overnight.
    I now recognize the ranking member for his opening 
statement.
    Mr. Faleomavaega?
    [The prepared statement of Mr. Manzullo follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Faleomavaega. Thank you, Mr. Chairman. Mr. Chairman, 
thank you for holding this hearing on U.S. policy toward 
Myanmar. I applaud your leadership and want you to know I am 
honored to serve with you. This subcommittee, the House of 
Representatives and your constituents have all been well 
represented by you. At home and abroad you will be missed.
    Last year, Myanmar has demonstrated that it is on the path 
toward democratic reform and I am pleased by these 
developments. I am especially pleased that President Obama sent 
Secretary of State Hillary Clinton to Myanmar in December of 
last year. Secretary Clinton was the first high-ranking member 
of any American administration to visit Myanmar since World War 
II.
    And Mr. Chairman, I am also pleased and honored that we 
have with us as our witness, a gentleman whom I have had the 
privilege of working with also is our Assistant Secretary of 
State of East Asian Pacific Affairs, my good friend, Kurt 
Campbell, who has also been doing a fantastic job as part of 
the administration's engagement policy from the very beginning 
in terms of what they have done in the past 3 years in dealing 
with the leaders of Myanmar. And Mr. Campbell certainly is 
attributed for doing all the tremendous work, leg work in 
bringing to pass these developments, and especially having 
Secretary Clinton visit at the leaders of that country and 
especially Ms. Aung San Suu Kyi.
    During her visit, Secretary Clinton praised President Thein 
Sein's leadership and courage, and so do I. President Thein has 
authorized four separate amnesties for groups of prisoners 
since May of last year. For the first time in 22 years, Aung 
San Suu Kyi and the National League for Democracy participated 
in the April 1st, 2012, by-elections and won 44 out of the 45 
seats up for election.
    Under our new policy of engagement the United States will 
name an ambassador to Myanmar and establish USAID presence. We 
will ease sanctions on agriculture, tourism, telecommunications 
and banking. Furthermore, international response to U.S. 
leadership has been positive, Australia announced that it would 
lift sanctions. Japan decided it would waive Myanmar's debt, 
and the EU announced its decision to suspend trade, economic 
and individual sanctions against Myanmar for 1 year.
    These are welcome new developments and I commend President 
Obama, Secretary Clinton and Assistant Secretary Kurt Campbell 
for moving full speed ahead in the policy of pragmatic 
engagement. This is the course of direction the U.S. should be 
taking.
    I look forward, Mr. Chairman, in hearing from our 
witnesses, Secretary Campbell and Ms. Biswal, and I want to 
note for the record that my dear friend and colleague, 
Congressman Joe Crowley of New York, who has been a strong 
advocate for reform in Myanmar, at his request our democratic 
witness is the Honorable Tom Andrews, former Member of Congress 
and president and CEO of the United to End Genocide.
    On behalf of Representative Crowley I welcome you, and once 
more I commend Chairman Manzullo, gentlemen, for holding this 
important hearing. I look forward to hearing from our 
witnesses.
    [The prepared statement of Mr. Faleomavaega follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. Thank you. Mr. Royce?
    Mr. Royce. Thank you, Mr. Chairman. Over the past year, 
Burma has seemingly opened itself up to change. Persons of 
conscience as you know have been released there now. Aung San 
Suu Kyi's National League for Democracy party was allowed to 
participate in the elections. Governments around the world are 
of course quite optimistic. The EU is suspending sanctions, 
Australia has pledged to lift its sanctions, we have a 
situation where Japan has waived the $3.7 billion of Burmese 
debt. But at the end of the day I think we can say that Burma's 
motives are somewhat unclear in this.
    Some of the speculation has been that the regime no longer 
wanted to be a wholly-owned subsidiary of Beijing and that that 
drove some of it. I will be interested in hearing the 
witnesses' observations and what the administration believe is 
driving this.
    The administration has also struck a similarly optimistic 
tone with the rest of the international community on this, and 
we are moving quickly toward pragmatic engagement there with 
the Burmese Government, laying out plans for a fully accredited 
ambassador now in Rangoon and plans for presence of USAID, 
which is appropriate. However, I think that we would be wise to 
remain cautious. Progress this is but progress can be quickly 
reversed. And although we enjoyed watching that election and 44 
seats out of 45 going to the National League for Democracy 
party, at the end of the day that is still a small, small 
percentage, a sliver of that 664 seats that are in the 
Parliament there.
    Our increased engagement with the Burmese Government must 
be accompanied by a push for engagement with civil society 
which can be empowering for a civil society there. What should 
be at the center of this relationship is not only a long-term 
view about engaging civil society, but the Burmese people. If 
we keep that in mind, making that the center of the 
relationship, that is where we are going to do the most good.
    Lastly, I think Burma's positive relationship with North 
Korea is a vexing and an odd thing that shouldn't be taken 
lightly. The extent of the proliferation network between those 
two countries is still murky but we know some of the history of 
it, and cutting this tie to North Korea should also be a 
priority in the relationship.
    But I thank you, Mr. Chairman, and I yield back the balance 
of my time.
    Mr. Manzullo. Congressman Rohrabacher?
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I think 
this is a wonderful celebration today of many, many years. I 
know for myself I have been engaged in this for about 24 years. 
A lot of people understand that right after I was elected to 
Congress I disappeared and went to Afghanistan for 2 months and 
fought alongside the mujahideen. But what they don't also 
understand is on my way to Afghanistan I went to Burma and met 
with the Burmese students in the jungle who were at that time 
even then in 1988, resisted in fighting the junta that was 
repressing their people in Burma.
    And I remember walking away from that meeting, pardon me. I 
just came back from overseas last night, so I am a little bit 
weary here, but I will try to get my words out right. The fact 
is, is that when I left those meetings in the jungle in Burma I 
was so impressed with these young people. And I remember while 
I was impressed certainly yes by the courage in the fighting 
which I saw in Afghanistan, but the idealism of those young 
people in Burma, I knew that some day if they held true to that 
they would triumph. And this is a triumph for the idealism of 
the Burmese people, and they did not succumb to the type of 
mass bloodshed on their side as many people who are struggling 
for freedom have gotten into over the years and not been 
successful.
    Those note in terms of American policy, so first of all, 
this is a great success for the Burmese people, the idealists 
among the Burmese people, but it also is a reflection on 
American policy. We did not in Burma become engaged. We did not 
put forth a policy of engagement. This is coming about now, is 
not coming about because the United States Government decided 
to treat the Burmese Government as if it wasn't a vicious 
dictatorship that was murdering its own people. In fact, we 
tried to isolate them and used economic sanctions instead of 
trying to make them feel that they could be part of the family 
of nations even though they were a corrupt dictatorship. Well, 
in the end that policy has worked. The policy of basically 
treating a dictatorship like it is different than a democracy, 
and not giving them the same trading and economic privileges 
that we have with democratic nations. I think now is the time 
we should move forward and make sure that we start opening up 
those opportunities. As they make their concessions, we should 
do step by step make theirs.
    And Mr. Chairman, one last point and that is, let us not 
forget that there are still tribal groups along the border in 
Burma, the ethnic peoples who are still under attack and being 
murdered by the central government. They need to be brought 
into this process of reconciliation as well. Thank you very 
much.
    Mr. Manzullo. Thank you. Congressman Crowley?
    Mr. Crowley. Thank you, Chairman Manzullo, and thank you 
for allowing me to sit in on my former committee here in 
Foreign Affairs. And thank you for allowing me to participate 
today.
    I was fortunate to travel to Burma in January when I was on 
a trip to India. And I had the opportunity to meet with both 
the military government and the opposition led by Aung San Suu 
Kyi. I also met with families of political prisoners and some 
members of ethnic minority groups. I am deeply appreciative to 
all those at the State Department who helped me on that trip, 
in particular, Secretary Clinton. I also appreciate the time 
spent on Burma by this administration. It has been an enormous 
amount of time, I think, and a good amount of time on this. And 
I also want to recognize the work of former First Lady Bush, 
and President Bush's attention to this as well. After all, it 
was this committee that created many of the sanctions and also 
the position of the special envoy on Burma through the Burmese 
JADE Act, which was an Act that I was proud to be the sponsor 
of.
    I walked away from Burma with three distinct impressions, 
and those impressions form my view that a lot of the media 
coverage around Burma lately has been overheated if not 
slightly overstated. First, those who are struggling to end 
military rule in Burma are among the bravest heroes in the 
world today. They are risking their lives for values that we 
share as Americans and sometimes take for granted and they 
deserve our respect and our admiration.
    Second, human rights abuses in Burma are still going on. 
There are still several hundred if not more political prisoners 
locked up behind bars in Burma, serious acts of violence 
against ethnic nationalities have continued. In fact, many 
attacks on ethnic minorities have taken place even after the 
April 1st by-election.
    Third, the democratic opposition has won only a small 
political arena to operate, about 6 percent of the national 
Parliament. The opposition holds no real power in this 
Parliament other than the power of hopefully persuasion. There 
is no real rule of law to constrain government behavior, and 
the military still seems to run a lot of the show in Burma.
    Now I don't want to be viewed as one who is here to throw 
cold water, that is not my intention. But for all these reasons 
I believe we must be careful to not lift sanctions too quickly. 
We should not hesitate if it is necessary to impose even more. 
The steps already taken by the United States have been 
substantial and there is no need to rush to judgment. Groups 
working in conflict areas report that it may even be more 
likely that lifting some of the sanctions could increase 
conflict within Burma.
    It is no secret that the vast majority of extractive 
industries in Burma are owned and operated either by members of 
the military, former leaders of the military or their cronies. 
There is nothing they want more than to sweep into ethnic areas 
and steal the plentiful and natural resources within. If we 
give up all of our leverage through lifting more sanctions, 
what do we have to push for an end to these attacks? So let us 
continue some pressure. We can match action with action but we 
should be cautious and skeptical so that we don't write simply 
a blank check.
    So with that, Mr. Chairman, I once again thank you, and I 
thank our witnesses here today.
    Mr. Manzullo. Thank you. Our witnesses are, first, 
Secretary Kurt Campbell who became the Assistant Secretary of 
State for East Asian and Pacific Affairs in 2009. Previously, 
he was the CEO and co-founder of the Center for New American 
Security, and concurrently served as the director of the Aspen 
Strategy Group and chairman of the Editorial Board of the 
Washington Quarterly. He was the founder of StratAsia, a 
strategic advisory firm, and was the senior vice president, 
director of the International Security Program, and Henry A. 
Kissinger Chair in National Security Policy at the Center for 
Strategic and International Studies.
    Dr. Campbell has served in several capacities in government 
including as Deputy Assistant Secretary of Defense for Asia and 
the Pacific, a director on the National Security Council staff, 
Deputy Special Counselor to the President for NAFTA in the 
White House, and White House fellow at the Department of the 
Treasury. He received his BA from the University of California 
San Diego and his doctorate in international relations from 
Brasenose College at Oxford University.
    Nisha Biswal was sworn in as USAID's Assistant 
Administrator for Asia on September 20, 2010. Prior to her 
appointment she served as the majority clerk for the State 
Department and Foreign Operations Subcommittee on the Committee 
on Appropriations in the U.S. House of Representatives. In this 
capacity, she provided staff support to the Appropriations 
Committee Chairman David Obey and subcommittee Chairwoman Nita 
Lowey in managing the appropriations and oversight of the U.S. 
international affairs budget.
    She has also served as professional staff on the House 
International Relations Committee. That is your most famous 
post, right? Ms. Biswal holds a bachelor of arts degree from 
the University of Virginia.
    Welcome, Secretary Campbell. Welcome, Administrator Biswal. 
Let us start first with Secretary Campbell.

STATEMENT OF THE HONORABLE KURT CAMPBELL, ASSISTANT SECRETARY, 
 BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, DEPARTMENT OF STATE

    Mr. Campbell. Thank you very much, Mr. Chairman. And just 
to save time, I know we have so much interest here, I would 
like to ask that my full statement be submitted for the record 
and then we can proceed accordingly.
    Mr. Manzullo. Without objection, the statements of both 
witnesses, of all the witnesses, will be submitted for the 
record.
    Mr. Campbell. Thank you very much. And I just want to say 
if I may at the outset, a word of thanks to all of you for some 
specific issues. As you know, Mr. Chairman, we were both in New 
Zealand during the earthquake, and working with you in the 
aftermath of that I want to tell you, we were very proud that 
the United States has been by far and away the largest 
contributor to the rebuilding of the devastated city of 
Christchurch, and you played an instrumental role in that. I 
want to thank you.
    Congressman Faleomavaega has been an ardent supporter of 
renewed engagement in the Pacific. Too often when we say Asia 
Pacific, P is the small P, and he has been a constant reminder 
of our need to do more there, and I want to thank him for that, 
for his encouragement and his support.
    Congressman Royce, in particular, you have helped us so 
much in our relationship with the Philippines. I am proud to 
say, on Monday we will be hosting the first ever 2+2 with our 
Filipino friends. We must do more with our allies in the 
Pacific, and you have been a consistent reminder of that.
    Congressman Crowley, you have been our conscience on so 
much of what we have done in Asia, and I appreciate your 
support and your reminder not to forget about those that are 
still struggling mightily in Asia and particularly in Burma.
    And Congressman Rohrabacher, you have been our conscience 
on security issues often, sometimes reminding us about stuff 
that goes on that we must not turn our head away from. So for 
all of you, we are grateful for your support in engagement on 
the Asian Pacific region. I want to also underscore that there 
is scarcely a word said by any of you that we would disagree 
with.
    So I just want to underscore that again the hallmark of our 
policy in Burma has been two essential features. I would say 
actually three. The first is that it has been bipartisan. And 
we seek and I want to commit to you that we want to maintain 
that bipartisan commitment and dialogue going forward. 
Secondly, it is part of a partnership between the executive and 
legislative branches. The legislative branch has really led the 
way, has reminded us of the importance of Burma even when we 
were focused on other things, and we have been very grateful 
for that.
    And then the third dimension is the need to consult and 
coordinate closely with international friends. We spend an 
enormous amount of time working with our friends in Europe, in 
Asia, in Japan, in Australia and New Zealand, to ensure that we 
are as well coordinated as possible in terms of our overall 
approach. So overall, I think that what we heard just now from 
you was balanced and careful.
    And I just want to underscore that that is our overall 
approach. I think Congressman Crowley did underscore that there 
has been some overheated rhetoric. I hope that is not coming 
from the administration. In fact, I think we have tried to be 
clear from the beginning of an effort of dialogue in 2009, to 
acknowledge areas of very deep disappointment. And in fact, for 
about 2 years we were probably the first to say that we were 
making absolutely no progress.
    But in fact, over the course of the last several months we 
have seen dramatic developments taking place inside the country 
that no one would have imagined. Aung San Suu Kyi has been 
elected, in albeit an imperfect election, to Parliament. Just a 
few months ago she was under house arrest. We believe that 
there is real significant progress underway inside the country, 
but I want to quote what Secretary Clinton has said, ``We 
believe that it is fragile and reversible. The future in Burma 
is neither clear nor certain and therefore we need to carefully 
calibrate our approach to encourage continued progress.''
    I want to assure you that in every single meeting we have 
both with officials in the country, with representatives from 
ethnic groups and from civil society and all of our 
interlocutors in Asia, in Europe and elsewhere that we do 
acknowledge the changes that are taking place. But we also say 
very clearly and firmly that much more needs to be done. These 
are the first stages of what we hope will be a very long 
journey, but much more needs to be done with unconditional 
releases of political prisoners, much more work in terms of 
advances of civil society, the legislative and legal frameworks 
of a well functioning open society.
    The relationship that Congressman Royce raised between 
Burma and Noth Korea, we are seeking a full discontinuance of 
that relationship. On the military side, countries are judged 
by the company they keep and we think that is extremely 
important going forward. And we are also determined to work 
diplomatically in every area that is of continuing concern 
between the United States and indeed the international 
community and the country itself.
    I believe what we have laid out is a very careful, 
calibrated, step by step approach that rewards action for 
action. And I just want to suggest that any steps that we take, 
any easing will be done in very close consultation with 
Congress, in close consultation within the U.S. Government 
between the White House, the State Department, the Department 
of Defense and particularly the Treasury Department, to ensure 
that it is done carefully and responsibly, and we recognize 
very clearly that there have to be provisions and capabilities 
to be able to respond if there is a reversal or a stalling out. 
That leverage is an essential component of our strategy, and 
pressure will be needed in a number of circumstances going 
forward.
    So my own personal view is that this is indeed a welcome, 
historic opening. I would disagree slightly with my friend, 
Congressman Rohrabacher. I think it does have to do with what 
the international community has done. I believe the solidarity 
of friends in Europe, in the United States, not just in 
governments but in groups that have persevered and kept 
conscience with people inside the country, have made an 
enormous difference and that needs to continue going forward. 
And I just want to underscore, anyone who says that this is the 
end of the game is not paying attention. We are at the very 
beginning stages of a process that will demand intense American 
engagement, no gauzy gaze and rose-colored glasses. A true 
understanding that the steps that we take must be in the larger 
pursuit of systemic reforms and progress for the people not the 
cronies.
    And I just want to commit to you that as we go forward we 
will do everything possible to work with you to make sure that 
we do this in consultation. And I also want to thank my friend 
and colleague, Nisha Biswal. I cannot imagine a better person 
to be working with this effort on. Thank you.
    [The prepared statement of Mr. Campbell follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. Thank you.
    Administrator Biswal?

      STATEMENT OF THE HONORABLE NISHA BISWAL, ASSISTANT 
ADMINISTRATOR FOR ASIA, UNITED STATES AGENCY FOR INTERNATIONAL 
                      DEVELOPMENT (USAID)

    Ms. Biswal. Thank you very much, Mr. Chairman, Ranking 
Member Faleomavaega, members of the committee. It is always a 
pleasure, an honor and a thrill for me to testify before this 
committee since I spent so much time sitting behind the members 
in preparing for hearings in the past.
    I do want to follow in the steps of my esteemed colleague, 
Kurt Campbell, and just touch upon a few key priorities and 
next steps on the USAID assistance program so that we may 
preserve the balance of the time to answer questions and engage 
in discussion.
    USAID has a long history with Burma, and indeed the U.S. 
relationship predates the establishment of USAID as the 
assistance relationship began in 1950. But we have not had a 
mission there since 1988 and the fateful events of that year. 
In the meantime, we have been stalwart in our support for the 
Burmese people through our humanitarian assistance programs 
inside and outside of Burma as well as our support for 
democracy, human rights, independent media and the like.
    Since about 2010 we have maintained a $38 million program 
of bilateral assistance through USAID, both along the Thai-
Burma border as well as inside Burma. The opportunity we have 
today is an opportunity to, through the establishment of an 
USAID mission, more directly engage with the people of Burma, 
more directly support the reforms through support for the civil 
society, and for reform-minded institutions to support efforts 
for reconciliation and to engage more efficiently with other 
donors as we move forward. That, first and foremost, is why we 
want to establish that mission and that is our operating 
procedure moving forward.
    We hope to have by the fall of this year, the first U.S. 
direct-hire mission director in country, and to have a fully 
staffed mission by next summer. It will be a small presence but 
it will enable us to engage and assess far more directly then 
we have been able to heretofore.
    Our priorities for assistance really are focused on 
supporting political reform, for supporting civil society 
institutions, which though informal and nascent have been very, 
very resilient in meeting the urgent needs of the Burmese 
people. We believe that those civil society institutions are 
going to be critical for reform to really take root and to 
penetrate across all levels of society particularly as we look 
forward to 2015.
    We also believe that the critical need on the government 
side is to really have a greater technical capability and 
understanding of democratic governance. Even for those who are 
engaging aggressively on the path to reform, the greatest thing 
that we hear from them is the lack of capacity that is 
hindering institutions in Burma on the path forward, whether 
that is leaders of Parliament, whether that is ministries or 
the elections commission, and the like.
    And finally, as I noted, ethnic reconciliation is a major, 
major area of importance and of concern. The path to 
development cannot go far until and unless the needs and 
conditions of the ethnic minorities are addressed. And we are 
working with other donors to see what we can do to support 
national reconciliation, but in the meantime, also maintain our 
support for the urgent needs of those vulnerable populations 
that are most affected by ongoing conflicts.
    And finally, I would just like to note that Congress has 
had an important role, as Secretary Campbell noted, in U.S. 
policy toward Burma. USAID has worked very, very closely with 
Congress on how we move forward, and I want to commit to you 
that it is our intention to continue to do that.
    I want to thank you very much for this opportunity and open 
up now to answer any questions you may have.
    [The prepared statement of Ms. Biswal follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. Thank you for your testimony. Let us talk 
about the sanctions, the sanctions that have been lifted and 
the sanctions that may be lifted, and what are the next steps 
on lifting those sanctions and include a timeline, and how to 
keep pressure on Burma if we look to sanctions.
    Do you want to go first, Mr. Secretary?
    Mr. Campbell. Thank you very much, Congressman. I can give 
you a general answer to your very good question. Some of the 
particulars and specifics I would urge in another setting to 
talk with our colleagues in OFAC and Treasury that are 
responsible for the details.
    I would simply say that there is no intention to ``lift 
sanctions.'' I think in certain prescribed areas we will seek 
to ease sanctions by using executive authorities, but we would 
intend to do that in close consultation with key players on 
Capitol Hill including this body. I think our desire is to 
focus on those areas, and how we do this precisely obviously 
will be to maintain a clear criteria in terms of entities and 
individuals that are precluded from interactions because of 
prior associations. We will continue to enforce those 
prohibitions. We will update the list as necessary, and we will 
also work in areas that we think have the greatest potential to 
lift the lives of the people inside the country.
    We recognize fully that to date the reforms to the extent 
that they have taken effect have been primarily in urban areas 
and in fact Burman areas, and that other ethnic areas in fact, 
have told us quite clearly that they see very little change on 
the ground. So we need to ensure that that process extends into 
the country as a whole. And we are troubled by very clear and, 
we believe, reliable reports of continuing attacks and 
atrocities that are completely antithetical to the overall 
effort that we are seeking to achieve inside the country.
    I want to say that this will be a protracted process almost 
invariably because first of all, the complexities of the 
sanctions involved, the desire that we have to ensure that we 
do this in consultation with colleagues on Capitol Hill, and 
also to do this the right way. The real challenge, I think, 
going forward right now is the potential for a small country 
with very little infrastructure to be absolutely overwhelmed by 
outside engagement. And so we want to do this in a careful way.
    We do believe that American firms have the appropriate kind 
of corporate governance and the right values to promote better 
and more responsible actions inside the country, and we will 
seek to do this in a manner that the kinds of sanctions easing 
that we have in mind will actually assist reforms rather than 
undermine them.
    Mr. Manzullo. Your response to that?
    Ms. Biswal. I think that Secretary Campbell covered the 
waterfront on this. I would note that one of the actions that 
we have taken more immediately is to ease the restrictions on 
nonprofit organizations so that they may engage more robustly 
in supporting the Burmese people.
    Mr. Campbell. I would say, and I am sorry. I apologize, 
Congressman, I didn't mention this. We have taken a couple of 
steps that we think are important. We are seeking to ease 
travel restrictions on certain officials. So we want to be able 
to invite key players inside the government like the Foreign 
Minister, the Health Minister was just here, to come to 
Washington for consultations to engage with us on areas where 
we think more work is necessary and where we can support them 
going forward.
    Mr. Manzullo. Thank you. Congressman Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman. Perhaps we are 
dealing with semantics, Mr. Secretary, but I just wanted to 
make sure what we are, if we make reference to the colonial 
legacy of the British toward Myanmar, we call it Burma. But 
every country that I know among the ASEAN countries always make 
reference to this country as Myanmar and not Burma. What is the 
official designation by the administration? Are we going to 
call it Burma and remind the world community of its British 
colonial legacy or are we going to call it Myanmar? But what is 
the correct designation of this country?
    Mr. Campbell. Thank you, Congressman. You always have the 
questions that are based in the deep knowledge of the 
circumstances. It is the practice of the U.S. Government and 
one other government currently, to use the official term of 
Burma as the reference to the country. As you suggest, most 
countries in the world, ASEAN, Asia, many countries in Europe 
and almost all newspapers and other official sites use the term 
Myanmar. And indeed, even inside the country strong supporters 
of the NLD, when writing the country down use the term Myanmar 
as a whole.
    I would simply say that is our policy, and we have had 
deliberations with key stakeholders inside the country and 
elsewhere, and I think it will be a subject of discussions 
going forward.
    Mr. Faleomavaega. I recall Congressman Royce had raised the 
point that I wanted to ask you also, Mr. Secretary. The shift 
by the current administration or the Government of Myanmar 
toward these reforms like allowing Aung San Suu Kyi to 
participate in the election to bring about more democratic 
reforms. Of course a lot of pundits have also said that the 
current government kind of wants to play both sides, not 
necessarily in the pockets of the Chinese but try to also work 
with the Western, our side of the fence so to speak, or is it 
because it is just time to change?
    My understanding historically is that the reason for the 
presence of the military is because you had five, seven or 
eight states that are constantly killing each other from its 
history. There was never a united Myanmar so to speak, and 
apparently the only party that really was able to finally put 
everybody together was the military. Please correct if I am 
wrong on this historical.
    And I always say with fond memory, in the early '60s as a 
high school student I always remember the name U Thant as the 
former secretary general of the United Nations, coming from 
Myanmar. And then all of a sudden we just kind of not hear 
anymore about--but I really would appreciate for the record, 
historically why we ended up with the military taking control? 
It is my understanding that factions among the seven provinces 
for states, or eight or nine were constantly killing each 
other, a form of anarchy if you will, and correct me if I am 
wrong on this.
    Mr. Campbell. Thank you, Congressman. I probably would more 
closely associate myself with the reference that the chairman 
made. That this is a country with a long and tragic history. I 
also believe that the true path to reconciliation will require 
ethnic reconciliation. That there have been important steps 
that have been taken in urban settings, but ultimately how 
power, how authority is dealt with in ethnic areas, how these 
long running, some of them over half a century, conflicts are 
resolved will be key to the country's future.
    I have to say I do believe the government has attempted to 
take steps in a certain number of situations, ethnic situations 
to try to deal directly with the problems which are entrenched 
and long standing, and we have seen some progress. But there is 
also areas where we have seen continuing violence that is 
reprehensible and must be addressed going forward.
    To your earlier question about why this leadership has 
decided to reach out and also take steps inside the country, 
and this refers back to the excellent point that Congressman 
Royce and Congressman Rohrabacher raised. And the truth is one 
can never know fundamentally what motivates a government or a 
people to do things. My sense is that it is often a complex 
number of reasons why formal or informal decisions are taken.
    I will say this that it is well known and understood in 
Asia that 50 years ago, the richest, the most productive, the 
country with the most impressive potential future in Asia was 
Burma, and today it is probably, if not the most backward, 
among the most backward not just in Asia but globally. I 
believe that some of the leaders have had more experience 
traveling in ASEAN, traveling in Asia, and they have seen how 
far their government and their country has fallen behind. And I 
also am of a view that there are people inside the government, 
the current government that are people of courage and of 
goodwill that want to do what they can to support their people 
and their country.
    And so I think a big motivation is an attempt to bring this 
country into the 21st century and to move away from a history 
that has been clouded by violence, repression and a lack of 
opportunity. And I think if the United States can help play a 
role along that path we will be historically over time, I 
think, rewarded.
    Mr. Faleomavaega. I wish to just say in closing, Mr. 
Chairman, I am sorry, but I would also like to give credit to 
the members of the ASEAN association for having a lot of 
influence on the leaders of Myanmar to do what they are doing 
now. Thank you.
    Mr. Manzullo. Congressman Royce?
    Mr. Royce. I think one of the realities though in terms of 
what we are talking about is the military government there. You 
have a government with 60 percent of the GDP ends up in the 
hands of the government, and Burma as we think about its 
history as we think about the education system there and how 
impressive that was. And now you have, what, 2 or 3 percent of 
the GDP going for education. You have literally had an 
implosion within the society of other, of anything related to 
civil society or private ownership or related to institutions 
like education in which what has happened in place of it is 
this enormous transfer of resources into one sector of the 
society which then can hand out franchises to the officer corps 
or whatever. But that in fact, is what has happened in the last 
few generations and the last generation.
    So one of the questions I wanted to ask is given the small 
number of percentage of seats that were in play here, is this 
something that was done to placate the international community? 
Would circumstances really have been different if more was 
politically at stake in terms of a real presence there in the 
Parliament? Just to get your thoughts on that.
    And then the other thing, Mr. Secretary, that I wanted to 
ask about, there are these talks about a third test in North 
Korea being imminent, and yet the President of Burma, Thein 
Sein, had this to say. He reiterated his support for Kim Jong-
un in saying, ``I am convinced that the friendship and close 
cooperation between Myanmar and DPRK will continue to 
develop.'' This is the type of message you get out of some 
pretty odd actors on the world stage who have been based in 
North Korea and it puts Burma in company, in league with some 
characters that don't exactly comply with international norms 
of behavior. And I was just going to ask you what else you 
could tell us about that relationship.
    Mr. Campbell. Thank you again, Congressman Royce. Just to 
your first observations about the plundering that has taken 
place inside the country. I would add just to point to what you 
said, which is it has not just enriched some of the cronies, 
but frankly we think some of the international deals that have 
been struck, frankly, have robbed Burma of its natural 
heritage. And we would like to see a set of internal checks and 
balances and frankly, supported by the international financial 
institutions and the multilateral development banks to ensure 
that the development that takes place going forward serves the 
interests of the people of the country, and we think that is an 
extraordinarily important dimension going forward. And by the 
way, we will only be able to effect that if we are more in the 
game. So I believe that is also one of the reasons why a 
certain careful, calibrated engagement is in our best 
interests.
    I also suggest that I think that what will be critical in 
any sanctions easing will be to underscore publicly and in all 
our circumstances that those that have been associated 
particularly with past misdeeds will be prohibited from 
economic activities and other kinds of engagements financially 
and the like with the United States and our partners. And we 
worked very closely to ensure that these various steps are 
going to be adopted, we believe, among many of the countries in 
Europe and elsewhere that will go forward with engagement.
    On your last point, I don't really have much to say beyond 
full agreement with what you said about North Korea. And I just 
want to say publicly what we have said privately, to China, to 
South Korea, to every country in Asia who has focused on their 
engagement strategy with Burma that a limiting factor in our 
engagement will be the future direction of their military 
relationship with the DPRK. And that if they continue to take 
steps that are antithetical to U.N. Security Council 
resolutions it will put a break on the kind of engagement that 
we seek between their two countries.
    And I can't say it anymore directly that countries are 
judged by the company they keep. And so we fully agree, 
Congressman Royce, with your concerns in this regard.
    Mr. Royce. Yes, if I could just end with one point, Mr. 
Chairman. Just shifting countries for a minute, I want to thank 
you for your good work, the progress we are making with an old 
ally with the Philippines. One area of concern though is the 
sale of public lands especially when Filipino Americans are 
hurt. And I had a chance to talk to you a little bit about this 
prior to the meeting, but I look forward to working with you on 
it and I thank you again, Mr. Secretary.
    Mr. Campbell. I would like to commit publicly that we will 
work with you on this issue and raise it with our Philippine 
colleagues and friends.
    Mr. Royce. Thank you.
    Mr. Manzullo. Mr. Crowley?
    Mr. Crowley. Thank you again, Mr. Chairman. There are a 
number of meetings that took place in the short period, the 2 
days that I spent in Burma. In one meeting, I think, one of the 
most extraordinary women I have ever had the opportunity to 
meet is Aung San Suu Kyi. But also prior to that meeting, a 
meeting that I had with the families of prisoners of 
conscience, many of whom were released the day I was leaving 
Burma, and many of those families reunited.
    I just would like to get a sense from you, something I just 
want to say about those families momentarily. The absence of 
revenge was palpable. It was so evident that these people, the 
deprivation they had been through, their families, the torture. 
Being in prison in Burma is probably one of the worst places in 
the world to be incarcerated, and yet the total absence of 
revenge that I sensed from these families and from the 
prisoners as well.
    Do we have a sense of how many prisoners are still 
incarcerated in Burma who are prisoners of political 
conscience? And what is the administration doing to secure 
their release, and is the U.N. doing anything to secure their 
release with the soon-to-be visit by the Secretary General?
    Mr. Campbell. Thank you. I think I can address that 
question, Congressman. Can I just say, my own personal 
observation, I noted the same thing. And I have had a number of 
meetings with family members and those that have recently been 
released. I took away something else, which was just 
incredible. I have never met a group of people that had that 
strength of mind and appeared ready to play a role in as they 
returned to society.
    And one of the things that I had asked Congress to look at 
perhaps working with USAID or some other institutions, it is 
very clear that it is challenging for some of these hundreds of 
people that are returning back into public life to find roles 
in society. Some have been outside of, behind bars or 
imprisoned for decades. And I think we need to do more to 
support these people to help them, and we have been working 
with private foundations and the like. But frankly, your 
attention to this, your support to this makes a huge 
difference. So what you could do to help along those lines 
would be terrific.
    One of our efforts, we believe a very large percentage of 
the most high profile prisoners have been released, not all of 
them unconditionally, a point that we make in every single 
meeting with authorities that we seek those unconditional 
releases. We are beginning a bilateral dialogue, a multilateral 
dialogue, and we have worked with the United Nations to have a 
sense of what number and what kind of prisoners of conscience 
remain in prison. I would hate to give you an exact number 
because I don't think we know, but we will not rest until we 
achieve a full and accountable release of all the political 
prisoners inside the country.
    Mr. Crowley. Thank you, Ambassador. Ms. Biswal, just on 
terms of USAID and the conflict areas of the Kachin state as 
well as the northern Shan state, it is clearly a humanitarian 
crisis. There are over 75,000 displaced civilians and they are 
in desperate need of assistance and help.
    What is USAID providing in terms of assistance to these 
refugees, and will USAID begin to address the life and death 
needs of the displaced Kachin as well?
    Ms. Biswal. Thank you very much, Mr. Crowley. And before I 
answer your question I just also wanted to note that I had the 
opportunity a few weeks ago to visit Burma and to meet both 
with Aung San Suu Kyi and with many of the '88 generation 
political prisoners who have been released. And it is 
remarkable that not only do we have an extraordinary leader in 
Daw Suu, but that there are so many extraordinary individuals 
that give cause for optimism for that country's future.
    With respect to what we are doing and will continue to do, 
humanitarian needs inside Burma, along the borders, in the 
ethnic areas and such, we have provided over the years 
assistance through the Thai-Burma border consortium to refugees 
and displaced in that Thai-Burma border, we have been seeking 
to gain access into the Kachin areas for our assessment teams 
so that we can try to not only get a better handle on the 
humanitarian needs but also the institutions that may be able 
to partner with us in supporting and addressing some of those 
needs.
    The Department of State's Bureau of Population, Refugees 
and Migration did recently put forward assistance through the 
UNHCR specifically for Kachin, and UNHCR is right now also 
engaging in partnerships with some of the local institutions to 
try to get aid into the Kachin area. It has been difficult and 
we continue to press that in all of our conversations with the 
government, and we continue to meet very aggressively with the 
humanitarian community to see how we can expand access and 
assistance into that area.
    Mr. Manzullo. Thank you. Congressman Rohrabacher?
    Mr. Rohrabacher. Thank you very much. And thank you, Mr. 
Chairman, for letting me sit in today. I am not a member of 
this subcommittee although I have been active on many of the 
issues we have been talking about.
    Let me just start with a couple housekeeping chores here in 
terms of wording. When I talk about engagement, I have always 
personally been engaged with the people and expect our 
Government to be engaged with the people of Burma and other 
repressed peoples. That is where engagement belongs. For 
example, we did not engage the Soviet Union by giving it most 
favored nation status, but we engaged with China and that 
provided most favored nation status, and where did that 
engagement get us? There has been no liberalization in China 
whatsoever. They are still the world's worst human rights 
abuser. And in the Soviet Union, it has disappeared and they 
have gone through massive reform.
    I also have sat through decades of the business community 
lobbying this Congress to try to get us to lift the economic 
sanctions when the repression was at its worst in Burma. And 
there was no reform, the business community wanted to make 
money. So surprise, surprise, businessmen don't care about 
human rights. They want to make money. Well, let us recognize 
that. An engagement with those businessmen making money has 
nothing to do with making it a freer society and, in fact, I 
argue just the opposite. We should not be having free trade 
with dictatorships. Free trade between free people is 
wonderful. Free trade with dictatorships strengthens the 
dictatorship.
    Furthermore, I would like to respectfully disagree with my 
friend, Mr. Faleomavaega. The Burmese junta did not take over 
to stop killing and they did not have some benevolent native in 
mind. They have killed and murdered more people than the ethnic 
groups were killing each other. And yes, there was a great deal 
of conflict that went on in that country, but nowhere near the 
organized slaughter that has taken place by the Burmese 
dictatorship which was the worst in the world.
    When they started calling Burma, Myanmar, was after 1988 
when the junta assumed total control of that society after they 
reneged on agreeing with free elections. That is when the word 
Myanmar, so that they could hide the fact that people don't 
even know what they are, who is being criticized when you use 
the word Myanmar. Most of the people over there didn't even 
know what that meant. That is why the word has changed. And now 
that we are going toward reform, I think it is a good idea we 
start calling them Myanmar. Let us start rewarding them and let 
us start engaging with them and really engaging with them, but 
let us do so in a way that if they start going backwards that 
there is a price to pay.
    I would suggest, and I know this is another outrageous 
Rohrabacher suggestion, let us give amnesty to all of them no 
matter what crimes they have committed against their people. 
Let us give amnesty and just say blanket amnesty everybody. But 
those people who continue to commit crimes after this lose that 
amnesty. That we will say, if you are going to start operating 
as we do in a decent society and a democratic, we are with you. 
We don't care what they say you did in the last 10 years. But 
if you start getting engaged again in slaughtering the people 
and the tribal groups out in the Kachins or the Kayins or 
whatever, that amnesty is going to be withdrawn. Let us make 
sure there is a penalty to go the wrong way and let us give 
them all the incentive to go the right way.
    And again, I think we should be celebrating. This is a 
tremendous breakthrough. This is a victory for the honorable 
people and the idealists of Myanmar, and it is also I might 
add, it is a defeat for China and it should be taken that way. 
This is a major country that was being given to the Chinese. 
They were raping, the Chinese were raping the natural resources 
of that country in exchange for arming the junta that oppressed 
the people. They have broken away from that cycle. That is a 
magnificent achievement for humankind.
    And maybe either of you would like to comment on that 
diatribe or whatever it was.
    Mr. Campbell. I think I will just reflect on it for awhile. 
Thank you.
    Mr. Rohrabacher. He doesn't want to engage with me.
    Mr. Crowley. Mr. Chairman, can the gentleman move forward?
    Mr. Manzullo. Certainly.
    Mr. Crowley. He should refrain from self-diagnosis. I don't 
think he is an M.D. or a doctor or a psychiatrist, so it is 
really----
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Mr. Manzullo. Thank you for your testimony, Secretary 
Campbell and Administrator Biswal. We appreciate you coming 
here this afternoon. We can prepare for the second panel, thank 
you.
    [Recess.]
    Mr. Manzullo. Okay, our second panel is former Congressman 
Tom Andrews from the great state of Maine. He is president and 
CEO of United to End Genocide. He most recently served as the 
national director of Win Without War, a coalition of 40 
national organizations promoting a more progressive national 
security strategy that calls for prudent use of military 
engagement. He has worked toward democracy and human rights 
throughout the world. He has worked closely with the National 
Coalition of Government of the Union of Burma facilitating the 
creation of the European Burma Network, and served as general 
secretary of the Nobel Peace Laureate Campaign for Aung San Suu 
Kyi.
    Tom was elected to the Maine House of Representatives in 
1982, the Maine Senate in 1984, and the U.S. House of 
Representatives in 1990. He recently served as an observer in 
the elections in Burma. Glad to have you here, Congressman.
    Our next witness is Mr. Aung Din, who served over 4 years 
behind bars as a political prisoner in Burma after organizing 
the country's nationwide pro-democracy uprising in 1988, as 
vice president of the All Burma Federation of Student Unions, 
the largest national student organization in Burma and outlawed 
by the regime. He also served as vice chair of Burma's Youth 
Liberation Front, and Cabinet Secretary of the Parallel 
Government, founded by former President U Nu during the peak of 
the 1988 pro-democracy uprising in September.
    Amnesty International adopted Mr. Din as a prisoner of 
conscience in 1989, and its chapters worldwide campaigned for 
his release. In 2003, he co-founded the Washington, DC-based 
U.S. Campaign for Burma, an umbrella group of Burmese 
dissidents in exile and American activists.
    Mr. Aung Din, good to see you here.

  STATEMENT OF THE HONORABLE TOM ANDREWS, PRESIDENT AND CEO, 
    UNITED TO END GENOCIDE (FORMER MEMBER OF CONGRESS, D-ME)

    Mr. Andrews. I want to thank you, Mr. Chairman, for having 
this hearing at this extraordinarily important time for Burma 
and this part of the world, and for inviting me to serve as a 
witness today. You are right, I did serve in this body. As a 
matter of fact, I was elected to the U.S. House of 
Representatives the same year that Aung San Suu Kyi and the 
National League for Democracy won 92 percent of the seats in 
the Parliament. I went on to Congress, she went to prison.
    And certainly there is a lot to celebrate in the fact that 
Aung San Suu Kyi has gone from a prison cell to house arrest to 
being elected to the Burmese Parliament. But reforms that 
President Thein Sein has announced should indeed be recognized, 
but we should also recognize that Burma, the progress that we 
have seen in Burma can easily be reversed and that we need to 
be prudent and clear-eyed because of the fact that a great deal 
in this country has not changed.
    The United States and this subcommittee has played a key 
role in generating and sustaining the international pressure 
that has been instrumental in making this progress possible, 
but to abandon this leverage prematurely would be to jeopardize 
this positive movement and condemn those who suffer and 
continue to suffer in Burma to more of the same.
    While the world was watching and celebrating Aung San Suu 
Kyi's election, I spent that day, election day in Burma, on the 
front lines of the brutality at the hands of this regime, 
Kachin state. A place the Burmese Government did not want me to 
see and does not want you to know about. A place where 75,000 
men, women and children have been forced to flee their homes 
because of attacks by the Burmese military. I would like to 
share with you what I saw.
    I visited the town of Laiza and Mai Ja Yang and the 
surrounding areas where despite President Thein Sein's 
assurances to the country in his speech on December 10th, 
Burmese troops, weapons and violence is, in fact, escalating. I 
spoke with dozens and dozens of people who were literally 
running for their lives having abandoned their homes and their 
villages. I heard stories of killing, forced disappearance and 
death from disease. The day after the election I asked an NGO 
worker in Kachin state, what was the news from Rangoon, and she 
said, frankly, I could care less. For the people of Kachin, the 
election and the declaration of reform by this government mean 
absolutely nothing.
    On election day I stood just beyond the range of Burmese 
military mortar fire north of Laiza, a place that had been 
attacked as recently as the day before. We could see the 
Burmese troops positioned on a hill across the valley. They had 
recently more than tripled their troop presence. Hundreds of 
soldiers occupied the hill and valley below, reinforcements had 
filled in from behind. Between where I stood and these troops 
was literally a gold mine. Mining operations had been suspended 
because of the fighting.
    As we were getting ready to leave a pickup truck came by 
with two elderly women in the back, Yi Ma Sa and Waw Ma Lay, 
told us they had just fled their village. The Burmese soldiers 
had destroyed their crops and shot their livestock. Fearing for 
their lives, they hid in the jungle the previous night, 
returned in the early morning hours to their village to grab 
what they could and now they were forced and were on their way 
to join tens of thousands already displaced.
    We met La Hpay Nang Bauk who spoke to us with a toddler 
afoot and an infant on her back. Her photo I brought to show to 
the committee. Her husband, a Baptist minister, had attempted 
to return to her village for supplies. He was captured by the 
Burmese military and had been missing for a month. She is now 
taking care of seven children while desperately trying to 
uncover news about her husband. Similar stories, Mr. Chairman, 
were all too common.
    Others tell us about an elderly man who had been working in 
a rice paddy when then Burmese military came upon him and shot 
him, killed him. We heard about a nursing mother who had been 
stabbed and left to die in the jungle, her child forced to 
spend a cold night crying next to her body. We met a farmer who 
had been harvesting corn with his wife and father-in-law when 
Burmese soldiers entered their field, ordered them to carry 
their corn to a military encampment. They tried to escape the 
next morning. His wife was caught and he has not heard word 
about her since.
    One of the most heartbreaking memories of my time in Kachin 
state happened 2 days after the election. I arrived in Bum Ring 
Zup camp in Mai Ja Yang. An 11-month-old baby, a little boy 
named Myu Jat Aung, had died the day before. I was invited to 
attend his funeral ceremony as an honored guest. He had reached 
the safety of the displaced persons camp after his family had 
escaped their village. But living in poor conditions with 
little access to medical treatment, a bout of diarrhea had 
become a death sentence. The family told us that we had been 
sent by God to see them so that the world would know.
    The Burmese Army as you know, Mr. Chairman, has a long and 
brutal history of targeting ethnic minorities. They do it 
through direct violence, rape and killing but also indirectly 
by destroying crops, livestock and preventing international 
humanitarian access. The stories we heard while on the ground 
in Kachin state indicate a clear targeting of civilians that 
shows no sign whatsoever of abating. Despite multiple public 
announcements from President Thein Sein in December ordering 
the Army to cease offensive attacks in Kachin state, Mr. 
Chairman, precisely the opposite is occurring.
    In reviewing U.S. policy toward Burma, I hope that this 
committee and our nation bears three basic things in mind. 
Number one, everything that the Burmese Government has done 
positively can be undone. The real questions about who is 
actually in control of the government and what real power the 
President might have must be asked. This was illustrated when 
the Burmese Army escalated its forces in Kachin state after 
President Thein Sein's announcement.
    Secondly, lifting sanctions on the extractive resource 
sectors of this economy precisely in the areas that we visited 
could have very negative impacts on vulnerable populations if 
those living in ethnic minority areas are not protected. And 
finally, economic pressure has helped to push forward progress 
in Burma. Giving away rewards too quickly in exchange for too 
little, leave the United States and the international community 
without leverage.
    For the people we met in Kachin state, trapped between 
hydroelectric projects, a new oil and natural gas pipeline, and 
situated along major trade routes to China, their economic 
advantages have become their misfortune.
    Mr. Chairman, my written testimony outlines specifics that 
I believe the United States should be looking at and insisting 
upon before gradual, deliberate, reversible removal of 
sanctions would be allowed to proceed. But first and foremost 
of those, we should be insisting that there be demonstrated 
progress and, in fact, an end to the gross violations of human 
rights including an end to attacks on civilians of all regions 
and meaningful access for international human rights monitors 
everywhere in this country.
    Much as we hope that the recent progress toward democracy 
in Burma will mark a turning point, nothing positive will last 
until the Burmese military stops committing atrocities and a 
civilian government exists that has the right and the capacity 
to hold it accountable, just the opposite is true.
    Mr. Chairman, Congress should renew the Burmese Freedom and 
Democracy Act, and urge the administration to take a measured 
approach on incentives. It is imperative that the United States 
Government engage with the legitimate representatives of each 
ethnic nationality and support redress of their long-standing 
and unresolved concerns. And given the reality in Burma that I 
saw, the United States cannot forget our commitment to cross-
border humanitarian assistance. The more than 0.5 million 
internally displaced people living in border areas depend on 
these aid networks for their very survival.
    I understand the desire, Mr. Chairman, to declare Burma a 
success story. I have been working for two decades to celebrate 
that achievement. But success is not marked by removing 
sanctions. It is marked by lasting and meaningful change for 
the people of Burma who have endured endless suffering under a 
brutal military regime. We must choose our steps wisely. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Andrews follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. Thank you.
    Mr. Din?

 STATEMENT OF MR. AUNG DIN, EXECUTIVE DIRECTOR AND CO-FOUNDER, 
                    U.S. CAMPAIGN FOR BURMA

    Mr. Din. Mr. Chairman, Ranking Member and members of the 
subcommittees, I really appreciate that the committee hold 
hearing about Burma at a very good time. And I also want to 
just state my appreciation to the United States Congress for 
its consistent interest and support for the Burmese democracy 
movement. I already submitted my written testimony for the 
record and I will summarize my testimony here.
    The historic by-elections in Burma were held on April 1st, 
2012. And democracy leader Daw Aung San Suu Kyi and her party, 
the National League for Democracy, won 43 seats out of 44 they 
had contested. And now governments around the world are 
congratulating Aung San Suu Kyi for her landslide victory. But 
in my opinion, Burmese Government led by President Thein Sein 
is the real winner of the elections.
    Winning of Daw Aung San Suu Kyi and her party about 7 
percent of seats in the Parliament will not constitute a major 
threat to the Burmese regime as they still hold 80 percent of 
seats in the Parliament and the military still has a veto power 
to kill any proposed legal change. However, what they have 
achieved from the by-elections is enormous. The international 
community recognized their political system as all party-
inclusive and legitimate and many international leaders see 
them as true reformers.
    The pressure and sanctions imposed by the United States, 
Australia, Canada and EU are being significantly lifted or 
suspended and the Japanese Government has announced that it 
will write off $3.7 billion debt and plans to resume 
development assistance. Engagement and appeasement will 
flourish further. More investment and more tourists will come 
in.
    Furthermore, this election effectively eradicates the long-
standing objective and expectation of Burma's democracy 
movement and ethnic nationalities. It is the realization of a 
meaningful and time-bound political dialogue between the 
military, democracy forces led by Daw Aung San Suu Kyi, and 
ethnic representatives that would lead to the real 
democratization and sustainable national reconciliation. Daw 
Aung San Suu Kyi has moved herself into the military-controlled 
political system with expectation that she can work together 
with former and current generals to make the country democratic 
and prosperous, and especially to work for the rule of law, 
internal peace and amendment to the undemocratic 2008 
Constitution. However, as we can see from the current stand-off 
between the regime and the NLD over the language of the 
Parliamentary oath, the magnitude and depth of obstacles she 
will face in the Parliament are extremely huge.
    So this election victory is just the beginning of new 
challenges for Daw Aung San Suu Kyi. There is a risk of course 
that she may be condemned, confined and co-opted in the 
regime's political system without achieving anything. Or she 
may be able to crack the door wider and recruit more and more 
members of the USDP and the military to join in the alliance of 
the agents of reform. There are so many uncertainties lying 
ahead.
    Two days before the by-election when a journalist asked her 
how she would rate the current state of changes toward 
democracy in the country on a scale of one to ten, Daw Aung San 
Suu Kyi said, we are ``on the way to 1.'' She knows clearly 
that there is still a long way to go. But the governments 
around the world including the United States, are now rushing 
to reward the regime with the excuse of encouraging the 
reformers.
    I support the measures announced by Secretary Clinton on 
April 4th, 2012, except targeted easing of investment and the 
financial services. I believe such easing of major sanctions 
will only help cronies, the military and families of 
authorities as they have power, resources, connections and 
institutions to profit from such opportunities. That is why I 
would like to make the following recommendations and request 
for the Congress to balance the fast track action of the 
administration.
    Number one, before the removal of any financial sanctions 
takes place, the SDN, Specially Designated Nationals list on 
Burma, managed by the Office of Foreign Assets Control, must be 
updated to include more cronies and hardliners. This list 
should be a must-check reference for U.S. companies that will 
do business in Burma.
    And number two, the process of selecting targets to be 
eased for investment and financial services should take 
sufficient time and should be made through broader consultation 
with the human rights community in the United States and key 
stakeholders inside Burma, especially ethnic nationalities.
    Number three, the implementation of targeted easing of bans 
on investment and financial service should wait until we see 
clearly how National League for Democracy and Daw Aung San Suu 
Kyi are treated by the USDP and the military in the Parliament 
and establishment of a nationwide ceasefire especially in 
Kachin state.
    And number four, binding requirements or a compulsory 
framework for responsible business conduct should be imposed 
for any U.S. business that will invest in Burma.
    And number five, United States must pressure the Burmese 
regime to allow former political prisoners to obtain passports 
so they can make trips abroad in response to the United States 
easing of visa restrictions on Burmese officials. And U.S. also 
must pressure the Burmese regime to allow members of the 
Burmese civil society to form and operate nonprofit 
organizations freely, in response to the U.S. granting 
permission to the U.S. organizations to work in nonprofit 
sectors in Burma.
    And United States also must pressure the Burmese regime to 
release all remaining political prisoners unconditionally, lift 
all restrictions imposed upon all former political prisoners, 
and allow former political prisoners to go back to schools or 
resume their professions such as legal representation, teaching 
or medical practice, et cetera.
    And United States now planning to establish official USAID 
office in Burma and support a UNDP country program, U.S. must 
pressure the regime to allow international organizations to 
have unhindered access to the areas affected by disaster or 
armed conflict.
    And U.S. must remind and keep reminding to the Burmese 
regime that their full cooperation with Daw Aung San Suu Kyi 
and democratic MPs in the Parliament and achieving negotiated 
political settlement with ethnic nationalities through a 
meaningful political dialogue outside the Parliament are the 
sole factors to justify fully lifting of sanctions. And again 
United States Congress must renew import restrictions contained 
in Burmese Freedom and Democracy Act of 2003 for Burma. And 
thank you.
    [The prepared statement of Mr. Din follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. Congressman Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman. I want to thank 
our colleague, Congressman Andrews, for taking the time to come 
and testify before our subcommittee. And I certainly want to 
commend you, Tom, for all the work that you have done in the 
areas of human rights, and especially dealing with, I don't 
know whether to call it Burma or Myanmar, and I am getting a 
little mixed up myself here now.
    Tom, with all that you have said, it sounds like the only 
reason why we are giving this step now toward allowing or 
working, having a better, closer relationship with Myanmar is 
because of Aung San Suu Kyi's elections. I mean with all the 
atrocities and the things that you have said, it seems like 
lifting the sanctions cannot be justified with what you have 
just shared with us.
    So am I catching the wrong wind here? Because not only 
that, we said oh, let us be cautious. It sounds like let us not 
even do it. If we are going to really honor the meaning and why 
we put sanctions against countries that commit military coups, 
then I have another series of concerns about this whole thing 
about sanctions where we have given the President the authority 
to waive the sanctions. And a costly example of this is 
Pakistan. For 8 years a military coup takes place and because 
of the nuclear issues, oh no, we have got to deal with Masharif 
in a very different way despite all the problems that we have 
dealt with.
    But I am concerned that what you are sharing with us is 
that it seems like Myanmar really has not changed at all when 
it comes to atrocities and the kind of killings that continue 
to go on in Myanmar. Can you shed some light on this? Am I 
wrong on what I am hearing from you?
    Mr. Andrews Congressman, you are not wrong. I think 
certainly from my experience at Kachin state as I mentioned in 
my testimony, they have no idea what anyone is talking about 
when it comes to reform and that things are going to get 
better. And as they see the escalation of troops and weaponry 
and violence, they have every reason to feel that way.
    I think that what is important is number one, that we do 
recognize the progress that has been made in Burma. I have met 
with Aung San Suu Kyi long before she was allowed to run for 
office. I have spent time in Burma at the time when the NLD was 
just barely able to exist at all.
    Mr. Faleomavaega. I am not taking anything away from the 
tremendous sacrifice and demonstration of her leadership and 
what she has done, I am talking about Aung San Suu Kyi. But it 
seems that our whole international media and everything in this 
statement is focused, it is just Aung San Suu Kyi, but beyond 
that you are telling us it really hasn't changed that much. We 
know that winning 44 out of 45 seats is an achievement in that 
direction but we are only talking about one-sixth of the entire 
parliamentary system that they have.
    And so who are we really kidding, other than to commend 
Aung San Suu Kyi for the sacrifices for what, 10, 15 years now 
that she has been under house arrest? I get the impression that 
we seem to be having a double standard here. If we were really 
serious about sanctions then let us do it. But the way we are 
saying well, let us do it halfway like giving a half of a loaf 
of bread or a third of a bread or whatever, I am not getting a 
straight answer in terms of, even from Secretary Campbell and 
all the administration's efforts that have been made. Now we 
are having diplomatic relations, but in the midst of what you 
just shared with us it hasn't changed that much. So who are we 
really kidding?
    Mr. Andrews. Well, that is right, Mr. Chairman. Her party, 
the NLD, ran the table on April 1st, on election day. She won 
6.5 percent of the vote, but the military by Constitution is 
guaranteed 25 percent of the seats in that Parliament and they 
are guaranteed a veto over any changes the Parliament may want 
to make to that Constitution. So in that respect nothing has 
changed. And certainly respective of the people like we are 
talking about today in Kachin state, nothing has changed. So 
sanctions, I believe, need to remain in place and that only 
when clear progress is demonstrated should we incrementally and 
very, very prudently begin to make reversible changes.
    Mr. Faleomavaega. I had about 100 other questions I wanted 
to ask, Mr. Chairman, but I am going to forego. Thank you, Tom 
and Mr. Din. I am sorry I don't have the time to ask questions. 
Thank you, Mr. Chairman.
    Mr. Din. Thank you, Congressman.
    Mr. Manzullo. I find it interesting that the NLD party only 
came into obtaining those seats which were previously held by 
the ruling party because the members of the ruling party left 
the government and the seats became available. I share Mr. 
Faleomavaega's concern as to what really has happened here? I 
mean at most, 7 percent of the seats were picked up and they 
have not even been sworn in. There is a huge dispute over the 
oath. Anybody want to comment on the oath? I think it is 
important.
    Mr. Din. First, I would like to respond something about our 
immediate concern. You are right, Mr. Chair. The international 
policymakers, the international media, there has been much 
attention on Daw Aung San Suu Kyi, but there has not been much 
attention on very big immediate issue in the country about what 
is happening among ethnic nationalities. But their plight is 
almost forgotten.
    So when international policymakers tried to make a policy, 
they only listened to Daw Aung San Suu Kyi and they didn't try 
to reach out to other leaderships. That is why when they made 
the decision and when they do the implementation, something is 
missing.
    Then you will see the story in the news media, victory of 
Aung San Suu Kyi, actually she only won 43 seats which is 6.5 
percent of the total Parliamentarian seats. She couldn't make 
any difference without convincing the military and the USDP 
party to join with her. But apparently USDP said oh no, there 
is no way to change the Constitution. And then military said 
oh, our duty is to protect the Constitution.
    Mr. Manzullo. So let me ask you both this question. It took 
but 4 days for a huge amount of sanctions to be lifted, and I 
refer to the testimony on, to your testimony, Mr. Din.
    Mr. Din. Yes, that is correct, sir.
    Mr. Manzullo. I think on Page 3, the USAID mission will 
establish an official presence in Burma, restrictions imposed 
upon the UNDP will be lifted, a U.S. Ambassador to Burma will 
be nominated, selected Burmese officials and parliamentarians 
will be invited to the U.S., private organizations in the U.S. 
will be allowed to operate in Burma, and two major financial 
sanctions, bans on investment and financial services will be 
eased for selected targets. This is an extraordinary amount of 
sanctions to be lifted in only 4 days.
    Mr. Din. Yes, correct.
    Mr. Manzullo. What is going on here?
    Mr. Din. They are going too fast. We look at the measures 
announced, and we have done too much. They are too fast because 
they made the announcement only after the 3 days of the by-
election. Now we have done too much because instead of 
beginning a process of selection of targets to ease investment 
banking, financial services which we consider major sanctions. 
So while we look at it as the situation on the ground, and 
winning 6.5 percent of seats in Parliament.
    Mr. Manzullo. But what about, and Congressman Andrews, 
maybe you can answer this in addition to Mr. Din, what about 
the ability of Americans and others to travel freely in Burma 
and to go wherever they want and observe whatever they want?
    Mr. Din. Well, some of them are granted visas, some of them 
are not. Even many of those, their visas was denied so they 
have to come to the State Department to get the United States 
stamps. And not only American travelers but also the Burmese 
people. Sometimes they are allowed to visit, sometimes they are 
not allowed to visit. Even if they are allowed to visit the 
country they have to sign a paper that they will not get 
involved in the political situation and something like that.
    Mr. Manzullo. Well, I am talking about the lifting of these 
restrictions. Do you think that will include the ability to 
have more people on the ground and the ability to make personal 
``inspections,'' for lack of a better word?
    Mr. Din. Well, some of this I agree that, okay, U.S. are 
now going to allow the U.S. organizations to do the nonprofits, 
et cetera, in Burma.
    Mr. Manzullo. The NGOs, okay.
    Mr. Din. No, this is a kind of encouragement for our civil 
society in each of the country. I believe that we need to build 
a strong and active civil society in Burma. The United State 
organization go into the country and have that do in the 
nonprofit centers, especially in education, health care and 
social affair. That would be grateful. This is a good thing, I 
think. We support it.
    Mr. Manzullo. Mr. Crowley?
    Mr. Crowley. Well, first of all, Congressman, I think if I 
sprinkled a little cold water on the first panel, you are like 
an iceberg coming in, an entire ocean. And I really don't 
disagree per se, in terms of the two tracks that are going on 
here. They have this diplomatic track that they are moving 
forward on to kind of show the world that they are changing, 
and at the same time it is similar to what the President said 
in his speech that things are going to change in this region. 
No longer will the state be attacking, they will only respond 
if attacked and we know that they are actually taking their own 
steps to attack the people of the Kachin region.
    And I think in terms of my observation that from a 
diplomatic point of view with even on the other track, which is 
the diplomatic end or the public relations end, that their move 
needs to be responded in a measured way. And I would even 
suggest that diplomatic relations was a measured way. The 
release of almost 1,000 prisoners and other good things that 
were happening, which really doesn't materialize beyond, the 
charge d'affaires we have there will now be called an 
ambassador. So we kind of all know what the reality is.
    I also think, in talking before about the hyperbole that 
has been out there about the great changes within Burma, and 
much of it has been driven by almost international competition, 
like Secretary Clinton was there and it was unexpected that 
trip would take place, and the visuals with Aung San Suu Kyi. 
And by the way I think Aung San Suu Kyi was the first person to 
say, it is not about me, and there is too much attention to 
what is happening here. And I hope and I believe that when she 
is in a position whether in Norway or in Great Britain or 
eventually when she comes here to the Capitol to talk about, I 
think, much of what both of you have mentioned today.
    But I do think that whatever that movement is from our end 
has to be measured and one in which we don't lift, and I think 
it really is pressure because of what Britain says or what the 
Prime Minister there says or what happens with the French or 
the Germans and who else says in terms of their own interest in 
wanting to get into Burma before anyone else. And it makes me a 
little concerned about the focus and attention on the 
competition between the United States and China in terms of 
what the fallout or the benefits of the relationship or the 
improved relationship will be.
    But real quickly, I have just a couple seconds or a few 
minutes left. In terms of the response, the measured response. 
What do you think a measured response should be in terms of 
sanctions? And what do you expect to see change in terms of 
between now and the time in 2014 when Burma is scheduled to 
chair the ASEAN conference? And we know the Secretary General 
of the U.N. is heading to Burma next week. What type of message 
should he deliver to the junta as well as to the world about 
Burma?
    Mr. Andrews. Well, thank you, Congressman. I have been 
described as many, many things but never an iceberg. But I 
appreciate that because frankly I think that we need to have a 
balanced view of the reality in Burma, and the people of this 
country and certainly Members of Congress who I have spoken 
with, have not received a balanced view of what is going on in 
Burma. So that is the purpose for this iceberg.
    And secondly, it was because of the leadership of the 
United States of America, leadership of both parties, that we 
were able to exercise the kind of pressure and leverage that 
has led to these challenges. I was on the front lines of the 
battles in Europe to try to get the European Union to follow 
the United States in creating the kind of economic leverage 
that ultimately they did which ultimately paid dividends. So it 
doesn't surprise me that because of great economic and 
corporate pressure places like the European Union are falling 
aside very quickly. But again we need U.S. leadership.
    Finally I would say, measured and prudent, we have both 
provided you and the committee with some very specific steps 
that we would recommend that you urge the administration to 
take and that Congress take that is simply based upon 
maintaining the sanctions regime that we have in place, of 
course recognize that having an ambassador there is a good 
step. Having USAID go in and assess what needs to be done, 
providing the means by which health care and education and 
other NGOs that provide these services can begin to engage. All 
of those are positive steps that recognize the progress that 
has been made.
    But in terms of sanctions, the real bite, I would say let 
us keep them but let us remove them incrementally step by step 
in reaction to specific, concrete, tangible progress and do it 
with measured and reversible lifting of sanctions.
    Mr. Manzullo. Mr. Sherman?
    Mr. Sherman. I am still trying to figure out why the 
military regime in Burma has taken the steps that it has. 
Certainly more sanctions efforts were part of it. But they 
always had an open door to Beijing. What is it that they 
desperately need from the West that they were unable to get 
from China?
    Mr. Din. If you ask such a question to many other peoples I 
believe you will have a lot of different answers. So for me----
    Mr. Sherman. So I shouldn't feel bad about being confused 
about the matter. Go ahead.
    Mr. Din. Yes, for me I would like to recall the history. 
General Ne Win took over power in 1962, so when military took 
over power he set up a political party called Burma Socialist 
Programme Party. He knew that he could not run the country and 
with a military government so he set up a political party and 
then he draw the Constitution which granted the, which is a 
single-party dictatorship.
    So he took more than 12 years to finish that Constitution, 
and in 1973 this one-party system conditions were approved, and 
then 1974 he hold the first one-party system election, and then 
let his party, Burma Socialist Programme Party became the 
ruling party because there is only one party. So my point is 
that----
    Mr. Sherman. Perhaps you going back to 1962 may be a little 
bit more of an answer.
    Mr. Din. No, that is why, I mean, their system, they built 
the political platform for them, so they hold the power. Once 
they finish the political platform, they allow the people, they 
ask the opposition members to join in their political system by 
offering incentives or general amnesty or something like that. 
So when people choose to join in their political system, they 
would be awarded and they would quote it as kind of the 
position here.
    Mr. Sherman. I also want to hear from Tom on this. What do 
they hope to get from the West that they couldn't get from 
China?
    Mr. Andrews. Well, Mr. Chairman, I agree with Aung Din that 
there are many responses to this, and reading the tea leaves of 
this regime is a very difficult thing to do. But I think in a 
word, pressure, the sustained pressure by the United States and 
the West made this possible to the limitation----
    Mr. Sherman. What were the pressure points? What did they 
say, oh, this sanction is hurting us. We can't buy this from 
the United States. We can't get this technical expertise from 
Europe. What was it that they couldn't get from China that they 
hoped to get from us?
    Mr. Andrews. There is great limitations they discovered to 
being totally dependent as they were on China, both in terms of 
market, both in terms of the kinds of conditions that those 
investments being made on the country meant in terms of taking 
natural resources and extracting them and putting them into 
China. In terms of the popular view of what was happening to 
Burma at the hands of the Chinese, I mean there are many, 
many----
    Mr. Sherman. So China had the capital, the technology and 
the markets that Burma would need, but being dependent upon 
China has some disadvantages.
    Mr. Andrews. Distinct disadvantages to the Government and 
to the people of Burma, whereas engagement with the rest of the 
world had significant advantages which they now want to cease.
    Mr. Sherman. And as long as they have a relationship with 
China they can play one side off of on the other, give us some 
of what they want, give the Chinese some of what they want. I 
am a bit confused as to why we would have sanctions, which hurt 
our economy as well as Burma, and at the same time provide 
development aid to Burma, I realize very small. We allo, we 
give about $38 million a year to Burma. If the purpose of our 
sanctions is to hurt the Burmese economy as well as individuals 
in ruling leadership, why is that consistent with the $38 
million of aid?
    Mr. Andrews. Well, Congressman, let me tell you. When I 
asked Aung San Suu Kyi and others in the NLD about economic 
pressure on the regime and its impact on the people, that 
development aid, support, it was explained to me that the real 
bite of the sanction is not on people on the grassroots level 
that basically surviving on a very localized economy. It is on 
those at the very top, particularly in the extractive 
industries, that have been the worst violators of human rights. 
And the economic pressure on the regime and the military that 
controls so much more of the economy particularly in this area 
of the economy, would have some real and significant bite 
without impacting those on the very bottom of this localized 
economy.
    There is desperate poverty in this area as a result of 
many, many factors. And that is why I said in my testimony that 
certainly those who are on the border areas need to have 
significant and sustained continued support just as a matter of 
survival. But cutting off----
    Mr. Sherman. Their money is fungible and that if we provide 
$38 million of aid to the poorest people in Burma, the ruling 
group can then take $38 million they otherwise would have spent 
and not spend it. You seem to be talking about a situation 
where it is not that quite simple. And in the absence of our 
aid the ruling elites would not be dipping into their own funds 
and spending money on the same projects?
    Mr. Andrews. I think it is extremely important for any aid 
package that goes to Burma, and this is certainly true in the 
past, it is certainly true now, should be very, very clearly 
directed that it goes directly to the people and the services 
that are needed. And that certainly is not the Government of 
Burma that will then as you say use it in a fungible way to 
support things that we just simply cannot tolerate.
    Mr. Sherman. Thank you, Mr. Chairman.
    Mr. Manzullo. Well, I thank both of you. Mr. Din, this is 
the second time you have appeared before the subcommittee.
    Mr. Din. Yes, Mr. Chairman.
    Mr. Manzullo. And Tom, thank you for a firsthand report of 
seeing different things. We are obviously very interested in 
Burma, and so is China. And I find it quite remarkable that the 
number of restrictions to be lifted before Aung San Suu Kyi and 
her party are actually sworn in and become members of the 
Parliament. I just find that quite perplexing that issue as to, 
and it is a very important issue with regard to the oath, 
considering the Constitution should have been resolved with 
pressure from Washington.
    I like to have one panel, but unfortunately the State 
Department does not like to do that. It is not at the request 
of the witnesses but that is their protocol. The reason for the 
one panel is that I like to have the interaction, because we 
have heard two quite distinct and different stories here as to 
exactly what is going on. And I am not being critical of 
anybody here, it is just a matter of the ability to observe 
firsthand.
    Congressman Andrews, what you shared with us simply was not 
available to the prior two witnesses, but it all goes together 
to make for the big picture. The testimony of both of you is 
regarded very highly by the people at the State Department and 
I would encourage both of you to continue what you are doing; 
to continue speaking out, especially with regard to the lifting 
of the next sanctions because the ultimate step will be the 
economic sanctions.
    So thank you all for coming, and this subcommittee is 
adjourned.
    [Whereupon, at 4:18 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
